®mteb States Court of Appeals
jfor tlje Sebentl) Circuit
Cljicago, 2flItnoig 60004

July 23,2020
Before'.
Daniel A. Manion, Circuit Judge
David F. Hamilton, Circuit Judge
Michael B. Brennan, Circuit Judge

BRENDA L. WHITE, for K.A., a minor, ] Appeal from the United
Plaintiff-Appellant,
] States District Court
] for the Southern District
No. 20-2214
v.
] of Indiana, Indianapolis
] Division.
ELITE BEVERAGES,
1
Defendant-Appellee.
] No. 1:20-cv-00872-JMS-MJD
]

] Jane Magnus-Stinson,
] Chief Judge.

ORDER
On consideration of the papers filed in this case and review of the short record,
IT IS ORDERED that this appeal is DISMISSED for lack of jurisdiction.
Rule 4(a) of the Federal Rules of Appellate Procedure requires that a notice of
appeal in a civil case be filed in the district court within 30 days of the entry of the
judgment or order appealed. In this case judgment was entered on May 28,2020, and
the notice of appeal was filed on July 7,2020, eight days late. The district court has not
granted an extension of the appeal period, see Rule 4(a)(5), and this court is not
empowered to do so, see Fed. R. App. P. 26(b).

Case l:20-cv-00872-JMS-MJD Document 20 Filed 08/25/20 Page 1 of 4 PagelD #: 74

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
BRENDA L. WHITE,

)
)
)
)
)
)
)
)
)

Plaintiff,
v.
ELITE BEVERAGES,
Defendant.

No. l:20-cv-00872-JMS-MJD

ORDER
On March 20, 2020, the Court granted pro se Plaintiff Brenda L. White's Motion for Leave
to Proceed In Forma Pauperis, screened Ms. White's Complaint pursuant to 28 U.S.C. §
1915(e)(2), and dismissed the Complaint without prejudice due to Ms. White's failure to properly
invoke this Court's diversity jurisdiction and failure to allege a federal claim. fFiling No. 6 at 56.] The Court gave Ms. White time to file an Amended Complaint that complied with federal
pleading standards and properly invoked this Court's jurisdiction, fFiling No. 6 at 61. but the
deadline passed without Ms. White filing an Amended Complaint. On May 21, 2020, Ms. White
filed a "Motion to Reopen," fFiling No. 81. which the Court construed as a Motion for Extension
of Time and a Motion to Amend the Complaint, and on May 28, 2020, the Court granted her
Motion for Extension of Time, denied her Motion to Amend the Complaint, and entered final
judgment in this case, fFiling No. 9: Filing No. 101.
On July 7, 2020, Ms. White filed a Notice of Appeal, fFiling No. Ill, and a Motion to
Proceed on Appeal In Forma Pauperis, fFiling No. 121. The Court found that Ms. White's appeal
was not taken in good faith and denied her request to proceed on appeal in forma pauperis. fFiling
No. 16.1

Case l:20-cv-00872-JMS-MJD Document 20 Filed 08/25/20 Page 2 of 4 PagelD #: 75

On August 17, 2020, the Seventh Circuit Court of Appeals dismissed her appeal for lack
of jurisdiction, stating that her Notice of Appeal was filed eight days late and this Court had not
granted an extension of the appeal period. fFilingNo, 17 at 3.1 Two days later, Ms. White filed a
Motion for Extension of Time, fFiling No. 181. and a second Motion to Proceed on Appeal In
Forma Pauperis, fFilingNo. 191. For the reasons set forth below, the Court DENIES Ms. White's
Motion for Extension of Time and DENIES Ms. White's Motion to Proceed on Appeal In Forma
Pauperis.
L
Motion For Extension of Time
"A district court may extend the time to file a notice of appeal if a party can show excusable
neglect for her tardiness." McCarty v. Astrue, 528 F.3d 541, 544 (7th Cir. 2008) (citing Fed. R.
App. P. 4(a)(5)(A)(ii)). When determining whether neglect is "excusable," the Court considers:
"(1) the danger of prejudice to the non-moving party; (2) the length of the delay and its impact on
judicial proceedings; (3) the reason for the delay (i.e., whether it was within the reasonable control
of the movant); and (4) whether the movant acted in good faith." Id. (citations omitted). "To
establish excusable neglect, the moving party must demonstrate genuine ambiguity or confusion
about the scope or application of the rules or some other good reason for missing the deadline, in
addition to whatever lack of prejudice and absence of delay he can show." Satkar Hospitality, Inc.
v. Fox Television Holdings, 767 F.3d 701, 707 (7th Cir. 2014). The Seventh Circuit Court of
Appeals has explained that "[t]he term 'excusable neglect' as used in Rule 4(a)(5) refers to the
missing of a deadline as a result of such things as misrepresentations by judicial officers, lost mail,
and plausible misinterpretations of ambiguous rules," Prizevoits v. Indiana Bell Tel. Co., 16 F.3d
132, 134 (7th Cir. 1996).

2

Case 1:20-cv-00872-J M S-MJ D Document 20 Filed 08/25/20 Page 3 of 4 PagelD #: 76

In her Motion for Extension of Time, Ms. White states that she "made a mistake and the
U.S. Court of Appeals for the Seventh Circuit is requiring an extension for this filing [of the Notice
of Appeal]." [“Filing No. 18 at 1.] As an initial matter, the Court notes that Ms. White's statement
that the Court of Appeal "is requiring an extension for this filing" is disingenuous, or a
misinterpretation, at best. The Seventh Circuit was merely noting that Ms. White had not
previously sought an extension of time from this Court prior to filing her late Notice of Appeal.
See Filing No. 17 at 3. Turning to the factors the Court must consider, the Court finds that the
length of delay is relatively short (eight days) and there is likely little danger of prejudice to
Defendant Elite Beverages. However, the Seventh Circuit has stated that these two factors "do
little analytical work in this context and thus are rarely dispositive. . . . Most important is the
reason for the delay." Salkar Hospitality, Inc. v. Fox Television Holdings, 767 F.3d 701, 707 (7th
Cir. 2014). Ms. White did not specify a reason for her delay. Although she states that she "made
a mistake," she does not explain exactly what that mistake was, nor does she explain the reason
for her tardiness in filing the Notice of Appeal. Moreover, this is not the first time she has missed
a filing deadline, see Filing No. 9, and, as explained below, her appeal is not taken in good faith.
For these reasons, Ms. White has failed to demonstrate excusable neglect, and the Court DENIES
her Motion for Extension of Time, [18].
11.
Motion to Proceed on Appeal Jn Forma Pauperis
An appeal may not be taken in forma pauperis if the trial court certifies that the appeal is
not taken in good faith. 28 U.S.C. § 1915; see Coppedge v. United States, 369 U.S. 438 (1962).
"Good faith" within the meaning of § 1915 must be judged by an objective, not a subjective,
standard. See id. at 445. There is no objectively reasonable argument Ms. White could present to
argue that the disposition of this action was erroneous. In pursuing an appeal, therefore, Ms. White

3

Case l:20-cv-00872-JMS-MJD Document 20 Filed 08/25/20 Page 4 of 4 PagelD #: 77

"is acting in bad faith . . ; [because] to sue in bad faith means merely to sue on the basis of a
frivolous claim, which is to say a claim that no reasonable person could suppose to have any merit."
Lee v. Clinton, 209 F.3d 1025,1026 (7th Cir. 2000). Accordingly* her appeal is not taken in good
faith, and for this reason her second request for leave to proceed on appeal informa pauperis, [19],
is DENIED.

ra.
CONCLUSION

For the foregoing reasons* the Court DENIES Ms. White's Motion for Extension of Time,
[18], and DENIES Ms. White's Motion to Proceed on Appeal In Forma Pauperis, [19].

Date: 8/25/2020

Eon. Jane Maghns-Stinson, ChiefJudge
United States District Court
Southern District of Indiana

Distribution via EFC only to all counsel of record
Distribution via U.S. Mail:
BRENDA L. WHITE
4141 N Ridgeview Drive
Indianapolis, IN 46226

4

Additional material
from this filing is
available in the
Clerk's Office.

